February 8, 2002
Audit Report No. 02-002


Least Cost Decision of Superior Bank
and Liquidation of Remaining
Receivership Assets
CONTENTS

BACKGROUND                                                             2

RESULTS OF AUDIT                                                       5

IMPROVEMENTS ARE NEEDED TO ENHANCE
THE RESOLUTION PROCESS                                                 6

  Least Costly Resolution Alternative and Level of
  Documentation Requirements                                           7

  Failing Bank Case for Superior Bank                                  8

  Documentation of the Elements of the Cost Test Summary               9

  DRR’s Request for Full Access to Superior Prior to Its Closure      11

  Appropriateness of DRR’s Policies and Procedures for
  Superior’s Resolution                                               15

  Value of Information Sharing Arrangement with DOS and the
  Office of the Comptroller of the Currency                           16

  DRR’s Initiatives for Improving the Resolution Process              17

RECOMMENDATIONS                                                       17

CORPORATION COMMENTS AND OIG EVALUATION                               18

APPENDIXES

   Appendix I:    Scope and Methodology                               19
   Appendix II:   Glossary                                            22
   Appendix III:  DRR’s Resolution Process                            27
   Appendix IV:   DRR Has Made Progress in Liquidating Pass-Through
                  Receivership Assets                                 29
   Appendix V:    Federal Deposit Insurance Corporation Improvement
                  Act of 1991 Least Cost Resolution                   31
   Appendix VI: DRR’s Development of the Cost Test Summary for
                  Superior Bank                                       32
   Appendix VII: Federal Deposit Insurance Corporation Improvement
                  Act of 1991 Prompt Corrective Action                33
   Appendix VIII: Corporation Comments                                35
Federal Deposit Insurance Corporation                                                                           Office of Audits
Washington, D.C. 20434                                                                              Office of Inspector General



   DATE:                       February 8, 2002

   TO:                         Mitchell Glassman, Director
                               Division of Resolutions and Receiverships


   FROM:                       Russell A. Rau [Electronically produced version; original signed by
                               Russell Rau]
                               Assistant Inspector General for Audits

   SUBJECT:                    Report Entitled Least Cost Decision of Superior Bank and Liquidation of
                               Remaining Receivership Assets
                               (Audit Report No. 02-002)

   The Office of Inspector General (OIG) completed an audit of the Federal Deposit Insurance
   Corporation's (FDIC) decision to place substantially all of the assets, and certain liabilities of a
   failed institution, Superior Bank, FSB, Hinsdale, IL (Superior), into a conservatorship 1 and of the
   FDIC's efforts to liquidate 2 Superior's assets that did not transfer to that conservatorship. On
   July 27, 2001, the Office of Thrift Supervision (OTS) closed Superior and named the FDIC as
   receiver3 for the failed institution. Concurrently, OTS chartered a new institution, Superior
   Federal, FSB (New Superior), and appointed the FDIC as conservator to operate the new
   institution. The FDIC transferred all of the insured deposits totaling $1.5 billion, substantially all
   of the assets totaling $2 billion, and certain other liabilities of Superior totaling $300 million to
   New Superior. Nearly $183 million of Superior's assets did not transfer to New Superior and
   remained in the FDIC pass-through receivership (PTR) that was created simultaneously with the
   establishment of New Superior. 4 At the time of Superior's failure, the FDIC estimated that the
   loss to the Savings Association Insurance Fund (SAIF) would be approximately $426.4 million,
   under the conservatorship approach for resolving Superior.


   1
     A conservatorship is established when a primary federal regulator appoints a manager, or conservator, to take
   control of a failing institution to preserve assets and protect depositors. See Glossary (Appendix II) for a more
   detailed definition.
   2
     Liquidation is the process of winding down the business affairs and operations of a failed insured depository
   institution through the orderly disposition of its assets after it has been placed in receivership.
   3
     A receiver is an agent appointed by a failed institution's primary federal regulator to manage the orderly liquidation
   of the failed institution.
   4
     A pass-through receivership is when all deposits, substantially all of the assets, and certain nondeposit liabilities of
   the original institution instantly "pass through the receiver" to a newly chartered federal mutual association,
   subsequently known as the "conservatorship." In the case of Superior, the FDIC is the receiver of the assets and
   liabilities that did not transfer to New Superior, the conservatorship .
The objectives of this audit were to evaluate the: (1) least cost decision for Superior and
(2) liquidation of remaining receivership assets that were not transferred to the conservatorship.

Specifically, we reviewed the following:

•   Adequacy of data used by the FDIC to make the least cost decision,
•   All available resolution options that the FDIC’s Division of Resolutions and Receiverships
    (DRR) considered in determining the least cost to the deposit insurance fund,
•   Documentation of the evaluations made and assumptions used by DRR to arrive at the least
    cost decision, and
•   Management and liquidation of assets that were not transferred to the conservatorship in
    order to minimize losses to the insurance fund.

Appendix I of this report presents additional information on the scope of this audit and the
methodology used to answer the objectives. Appendix II of this report contains a glossary of
terms that are used throughout the report.


BACKGROUND

Following numerous financial institution failures from the mid-1980s through the early 1990s,
the Congress passed the Federal Deposit Insurance Corporation Improvement Act of 1991
(FDICIA), codified at 12 USC 1811 et seq., to ensure the stability of the financial banking sector
and the deposit insurance funds. Section 141 of FDICIA, codified at 12 USC 1823(c), requires
the FDIC to resolve 5 a failed financial institution in the manner that results in the least possible
cost to the deposit insurance fund. 6 This section also contains requirements regarding the
documentation of the FDIC's resolution decisions.




5
  The term "resolution" means a disposition plan for a failed or failing institution. Resolution is designed to (1)
protect insured depositors and (2) minimize the costs to the relevant insurance fund that are expected from covering
insured deposits and disposing of the institution's assets.
6
  The Financial Institutions Reform, Recovery, and Enforcement Act of 1989 (FIRREA) created the Bank Insurance
Fund (BIF), the Savings Association Insurance Fund (SAIF), and the FSLIC Resolution Fund (FRF). It also
designated the FDIC as the administrator of these funds. All three funds are maintained separately to carry out their
respective mandates. The BIF and the SAIF are insurance funds responsible for protecting insured bank and thrift
depositors from loss due to institution failures. The FRF is a resolution fund responsible for winding up the affairs
of the former Federal Savings and Loan Insurance Corporation (FSLIC) and liquidating the assets and liabilities
transferred from the former Resolution Trust Corporation. The costs to resolve Superior will be paid out of the
SAIF, since Superior was a thrift institution.


                                                          2
Section 131 of FDICIA, codified at 12 USC 1831o, incorporated provisions for Prompt
Corrective Action (PCA). The PCA provisions of FDICIA establish minimum capital
requirements that assist the primary federal regulator (PFR) in the regulation of financial
institutions. 7 PCA provisions require more timely intervention by the PFR to preclude failure
and to minimize losses to the deposit insurance funds. PCA stratifies institutions into five
different capital categories, ranging from the highest group referred to as "well capitalized" to the
lowest sector known as "critically undercapitalized."8 PCA requires that the PFR close an
institution within 90 days after determining that the institution is "critically undercapitalized" and
does not have an adequate capital restoration plan.

The FDIC's resolution process is triggered upon the PFR's notification to an institution that it is
critically undercapitalized. DRR then has up to the 90-day PCA limit to collect information and
plan for the resolution. There are no PCA provisions requiring the FDIC to begin the resolution
process prior to notification by the PFR.

According to DRR's mission statement, DRR exists to plan and efficiently handle the resolutions
of failing FDIC-insured institutions and to provide prompt, responsive, and efficient
administration of failing and failed FDIC-insured institutions in order to maintain confidence and
stability in the national financial system. 9 DRR is proactive in identifying troubled insured
depository institutions, and DRR may begin its resolution efforts, such as valuing assets and
identifying potential purchasers of these institutions, before an institution fails. Although PCA
does not provide for the resolution process to begin until an institution is notified by the PFR that
it is critically undercapitalized, DRR and the FDIC's Division of Supervision (DOS) have
recognized that in some cases a failing institution may necessitate closure on an expedited basis.
For example, in cases where significant liquidity problems or fraud exist, it may be prudent to
promptly close an institution to minimize potential losses to the respective insurance fund. DRR
may not have the full 90 days to obtain necessary information to plan for and execute an orderly
resolution under these circumstances. To that end, formal procedures have been established by
FDIC directive for the collection and sharing of information between DRR and DOS for FDIC-
insured institutions that appear likely to fail (failing institutions) before the PFR notifies the
institution that it is critically undercapitalized. These formal procedures include provisions that

7
 Primary federal regulators are listed in the following table:
                    Agency                                            Type of Institution Regulated
FDIC                                                State non-member banks and state savings banks insured by BIF
Office of the Comptroller of the Currency           National banks
(OCC)
Federal Reserve Board (FRB)                         Bank holding companies and state member banks
Office of Thrift Supervision (OTS)                  Federal and state savings associations insured by SAIF and thrift
                                                    holding companies
8
  FDICIA charged each federal banking agency with establishing minimum capital levels for the various capital
ratios used to determine an institution's capital position. The FDIC adopted regulations to implement the PCA
provisions required by Section 38 of the FDI Act. The PCA regulation is codified at Part 325 Subpart B of the FDIC
Rules and Regulations. The specific PCA categories and their definitions are detailed in Appendix VII.
9
  The FDIC insures the deposits of financial institutions and is responsible for resolving all failed institutions,
regardless of the failed institution's chartering authority.


                                                          3
DOS staff shall seek the failing institution's consent to allow DRR access to the institution and
its records to facilitate the resolution process of a failing institution. DRR has established a
similar information sharing arrangement with the Office of the Comptroller of the Currency
(OCC).

DRR has developed a Resolutions Policy Manual, which provides guidance for a typical10
resolution process. DRR's typical resolution process is explained more fully in Appendix III.
The typical resolution process is based on having timely and appropriate access to failing
institutions before the institution's closing and involves:

          •   planning and preparing for the resolution process,
          •   preparing an Information Package (IP),
          •   conducting the Asset Valuation Review (AVR),
          •   marketing the failing institution, and
          •   selecting bids from prospective acquirers.

While onsite at the failing institution, DRR typically values and assesses the failing financial
institution’s assets and liabilities and uses this valuation to solicit proposals from approved
bidders. DRR analyzes the bids received, conducts a least cost determination, and recommends
the least costly resolution strategy to pursue upon the date of failure. DRR prepares a Failing
Bank Case to present its recommendations to the FDIC Board of Directors (FDIC Board). The
FDIC Board has the ultimate responsibility for determining the least costly transaction. 11

Superior's Resolution

On July 25, 2001, DRR presented its Failing Bank Case to the FDIC Board for the proposed
resolution of Superior. In this document, DRR compared estimated costs of liquidating
Superior, 12 as required by FDICIA, to two alternative resolution scenarios in devising its strategy
to resolve Superior. These two alternative resolution scenarios were:

•    Immediate Receivership and Sale - Superior would be closed and placed into receivership.
     The insured deposits and marketable assets would be sold in less than 5 days. The estimated
     cost of this resolution alternative to the insurance fund was $484.6 million.

•    Conservatorship - Superior would be closed, placed into receivership, and most of the assets,
     secured liabilities, and insured deposits would immediately pass through the receivership to a
     newly chartered mutual savings bank that is then placed in conservatorship. The FDIC

10
   DRR also refers to its typical resolution process as its "normal" resolution process.
11
   Under 12 USC 1819(a), the FDIC has the power… “To exercise by its Board of Directors, or duly authorized
officers or agents, all powers specifically granted by the provisions of this Act, and such incidental powers as shall
be necessary to carry out the powers so granted.”
12
   The cost to the SAIF is defined as the cost of paying off the insured deposits of Superior as of the date of closing,
offset by the estimated net amount the FDIC expected to receive from the disposition of the assets on the books of
Superior at the time the institution was closed. In this case, DRR estimated the cost to liquidate Superior to be
$524.8 million.


                                                           4
     would fund the operations of the conservatorship, up to $1.5 billion through its life, which is
     anticipated to be as long as 6 months. The conservator (FDIC) would offer the insured
     deposits in a deposit sale or by branch. Assets under this scenario would be sold piecemeal.
     In addition, the FDIC Board would appoint a chief executive officer to run the
     conservatorship. The estimated cost to the insurance fund for this resolution alternative was
     $426.4 million. 13

DRR recommended the conservatorship approach as the least costly option for resolving
Superior, and the FDIC Board agreed with the recommendation. The FDIC Board also approved
a PTR transaction structure. Specifically, the OTS (the PFR for Superior) appointed the FDIC as
receiver for Superior simultaneous to OTS's appointment of FDIC as conservator of New
Superior. The PTR retained $183 million, or approximately 8 percent of the total $2.4 billion in
assets held by Superior at the time of its failure. These retained assets consist primarily of
receivables from subsidiaries, four banking branches plus furniture and fixtures, and owned real
estate.

RESULTS OF AUDIT

The FDIC Board made its least cost decision to place Superior in conservatorship primarily on
DRR’s recommendation and the information presented in the Failing Bank Case. DRR’s Failing
Bank Case for Superior Bank presented two resolution alternatives to the FDIC Board, namely,
conservatorship and immediate receivership and sale, that were compared to the cost of
liquidating Superior. However, the projected losses to the deposit insurance fund for these
options were not supported by complete financial analyses. In the case of Superior, DRR did not
complete the IP or an AVR, two critical activities that enable DRR to solicit bids from potential
acquirers and compare the offers for determining the least costly resolution strategy. DRR did
not have sufficient information to develop other possible resolution alternatives for Superior
prior to presenting the Failing Bank Case to the FDIC Board. DRR’s access to Superior was
limited partly based on the fact that Superior's owners were in the process of implementing an
OTS-approved capital restoration plan that purported to address the capital problems at Superior.
Ultimately, Superior's owners did not implement this approved plan, causing OTS to notify
Superior, under PCA, that it was critically undercapitalized on July 24, 2001. As a result,
complete information on a range of resolution alternatives was not available to the FDIC to make
the least cost decision for Superior's resolution.

Under PCA, the formal resolution process begins upon the PFR's notification to an institution
that it is critically undercapitalized. If the FDIC had waited until the date of OTS's notification
to Superior to start the formal resolution process, then DRR would have had only 1 day to gather
and analyze information to support the least cost recommendation that it presented to the FDIC
Board on July 25, 2001.

With regard to the documentation of the evaluations used to arrive at the least cost decision for

13
  While this cost was estimated, the final cost of resolving Superior will be affected by the actual recoveries on the
assets and claims less expenses.


                                                          5
Superior, DRR adequately documented the asset and receivership liability claim balances and the
deposit premium estimates used in the Failing Bank Case. However, DRR did not adequately
document the assumptions used to estimate the loss on Superior’s $2.4 billion in assets, a loss
value that was instrumental in projecting the cost of Superior’s failure to the deposit insurance
fund in the Failing Bank Case.

DRR does not have guidance for determining the least costly resolution for large financial
institutions in situations where DRR cannot complete the IP or AVR before the institution is
closed. DRR's current guidance focuses primarily on how to prepare an estimate of the least cost
transaction for a failing institution when an IP and AVR have been completed. Therefore, DRR's
current guidance was not applicable to the Superior resolution, because as discussed above as
well as later in our report, an IP and AVR were not completed prior to Superior's closure.

DRR has made improvements to its resolution process in the last few years. DRR developed
information-sharing arrangements with the OCC and DOS that have facilitated DRR's early
access to failing institutions. DRR also included in its 2002 Strategic Plan an objective to
document and retain appropriate background information concerning unique situations
encountered from each resolution for future DRR reference or for presentation purposes. DRR
can further improve its resolution process to better ensure the quality and completeness of
information presented to the FDIC Board for decision-making purposes in situations where DRR
cannot complete the IP and AVR.

In evaluating DRR's efforts to liquidate the remaining assets in the PTR, we noted that DRR has
made progress in preparing these assets for sale. DRR anticipates continuing its sales efforts
with estimated completion dates for some activities extending into the second quarter of calendar
year 2002. Appendix IV of this report includes a discussion of DRR’s efforts to prepare the PTR
assets for sale. We will continue to track DRR’s progress and will report the results of our
review in this area in our ongoing audit of the marketing and final resolution of New Superior.

IMPROVEMENTS ARE NEEDED TO ENHANCE THE RESOLUTION PROCESS

DRR's Failing Bank Case for Superior Bank did not contain complete information. Additionally,
DRR did not adequately document the assumptions used to estimate the $753 million loss on
liquidating Superior’s $2.4 billion in assets, a loss value that was instrumental in projecting the
total cost of Superior’s failure to the deposit insurance fund. Contrary to the expectations of
senior officials from both the FDIC and the OTS, Superior's owners did not ultimately
implement a capital restoration plan in accordance with PCA by July 23, 2001, the expiration
date. In anticipation of Superior's imminent failure, DRR began to prepare the Failing Bank Case
on July 22, 2001 and presented the least cost recommendation to the FDIC Board just 3 days
later on July 25, 2001. DRR officials stated that although they began to gather and analyze data
in late-March 2001 for the purpose of planning for an orderly resolution in the event that
Superior would fail, they had been unable to complete the analyses used in the Failing Bank
Case. According to DRR, only a limited number of DRR staff were granted access by OTS to
Superior’s records and personnel, and key information was not made available to DRR, both of
which hampered DRR's ability to complete the analyses. Under PCA, the resolution process


                                                 6
begins upon the PFR's notification to an institution that it is critically undercapitalized. If the
FDIC had waited for the date of OTS's notification to Superior to start the formal resolution
process, DRR would have had 1 day to gather and analyze information to support the least cost
recommendation at the July 25, 2001 FDIC Board meeting.

Further, DRR does not have guidance for handling the resolution of a large (over $100 million in
assets) financial institution where an IP or AVR cannot be completed. Finally, DRR does not
have a formal information sharing arrangement with OTS. Such an arrangement could have
enhanced DRR's ability to gather sufficient information on Superior for the purpose of gaining
earlier and full access to Superior. Earlier and full access would have helped DRR plan and
prepare for a more orderly resolution, fully develop other resolution options for the FDIC
Board's consideration, and present complete information to the FDIC Board for decision-making
purposes.

In effect, the FDIC could not consider other resolution options, which may have been less costly
to the SAIF. When DRR is limited in considering all possible resolution alternatives or unable to
fully document its least cost recommendation, the FDIC is at risk for not fully complying with
FDICIA, and the quality of the least cost decision-making process is compromised.

Least Costly Resolution Alternative and Level of Documentation Requirements

FDICIA, as codified at 12 USC 1823(c), requires the FDIC to evaluate alternatives and choose
the resolution method that is least costly of all possible resolution methods to the deposit
insurance fund. This law also requires that in making the least cost decision, the FDIC must
document that evaluation and the assumptions on which the evaluation is based. Id. (See
Appendix V for the specific FDICIA requirements.) The statute does not prescribe the level of
documentation that is required or the timing of when the documentation to support the least cost
decision should be prepared. However, our review of this statute indicated that there is nothing
to prevent the FDIC from forming its own written policy that would specify the degree of
support necessary to document its least cost resolution decisions.

In a 1992 report entitled FDIC Documentation of CrossLand Savings, FSB, Decision Was
Inadequate (GAO/GGD-92-92), the General Accounting Office (GAO) recognized that unique
facts and circumstances surrounding each resolution case could alter the amount and type of
support underlying each resolution decision. Nonetheless, the GAO developed general
documentation criteria that would aid the FDIC in ensuring the adequacy of support for the FDIC
Board's evaluation and its assumptions. FDIC senior management did not object to GAO's
general documentation criteria at the time. GAO's criteria are as follows:

•   Documentation should be clear, consistent, concise, and complete so that an outside observer
    can identify and understand the estimated cost of each option, including the assumptions and
    discount rates used.
•   Data sources for the cost evaluations should be clearly identified so that cost figures can be
    traced to their source.



                                                  7
•   Assumptions integral to the cost evaluations should be documented and supported. In
    particular, each assumption should be (1) clearly identified and (2) supported by empirical
    data, or in the absence of such data, by judgment based on relevant experience. This support
    should be explicitly described in the documentation and, where appropriate, the source(s)
    used in making the assumption should be identified.
•   If there is uncertainty about the validity of an assumption that materially affects the cost
    evaluation results, some effort to gauge that uncertainty should be made and documented by
    showing a range of possible outcomes.

Failing Bank Case for Superior Bank

The FDIC Board based its multi-million dollar decision to place Superior into conservatorship
primarily on DRR’s recommendation and the information presented by DRR in its Failing Bank
Case. DRR's basis for this recommendation was that a conservatorship strategy would allow
maximum time to market and preserve the value of Superior's primary assets. In its Failing Bank
Case for Superior, DRR presented two resolution options, conservatorship and immediate
receivership and sale, that were compared to the cost of liquidation in its Cost Test Summary.
The Cost Test Summary showed the comparison of the total costs to the deposit insurance fund
under each of these scenarios. However, DRR's financial analyses to support the estimated loss
under each option were based on a partially completed IP and AVR, which diminished the
quality of the information presented to the FDIC Board regarding the total estimated cost to the
FDIC to resolve Superior.

According to the Failing Bank Case, in devising a strategy for the least cost resolution of
Superior, DRR staff had actually considered an additional resolution alternative, the “normal
resolution process". Although the normal resolution process was included in the narrative
discussion as a resolution alternative, DRR was doubtful of Superior's ability to maintain
liquidity during the subsequent 90-day period that DRR would need to collect sufficient
information to complete the normal resolution process. Therefore, DRR did not include typical
resolution alternatives that are used under the normal resolution process in its Cost Test
Summary that it presented to the FDIC Board for its decision on the least cost resolution.

In discussing the immediate receivership and sale resolution scenario in the Failing Bank Case,
DRR explained that it would market and sell the insured deposits and marketable assets within
5 days of the institution's closure. However, DRR further explained that the risk associated with
an immediate receivership and sale method would be that the full potential value of the deposit
franchise would not be realized. DRR stated that because of the imminence of the failure, there
would be insufficient time for a potential bidder to conduct adequate due diligence to determine
the value of the franchise and to develop a strategy for investing $1.5 billion in cash that the
bidder would immediately receive from its purchase of Superior's deposits. Additionally, DRR
was concerned that the sheer size of Superior's deposit franchise would limit the total pool of
potential bidders available to bid on Superior. DRR included the estimated cost of an immediate
receivership and sale in its evaluation of resolution alternatives in the Failing Bank Case's Cost
Test Summary, but did not recommend it as the least costly course of action.



                                                8
DRR's Resolutions Policy Manual states that significant preplanning is necessary to successfully
resolve a failing institution in the least costly manner. Developing an IP and performing an AVR
are two critical activities that enable the FDIC to market a failing financial institution in order to
obtain bids to be used in determining least costly resolution approaches. Therefore, to be
successful, DRR needs to complete the IP and AVR before the institution is closed, so that DRR
has sufficient information regarding the sale of assets to make an informed least cost
recommendation at closing. In the case of Superior, DRR completed the IP on August 1, 2001,
5 days after Superior’s closure and 1 week subsequent to presenting the Failing Bank Case to the
FDIC Board for its resolution decision. DRR based the estimated cost to liquidate Superior and
the costs of the resolution alternatives on preliminary asset valuations and input from FDIC staff
instead of a completed AVR.

In reviewing the transcripts of FDIC Board meetings where Superior's resolution was discussed,
there was no indication that the FDIC Board disagreed with DRR's assumptions and cost
estimates in making its decision that conservatorship was the least costly resolution for Superior.
Although DRR said it presented the FDIC Board with the best information that it had at the time,
DRR also acknowledged to the FDIC Board that the data in its Failing Bank Case most likely
contained a margin of error and was incomplete. For example, DRR estimated that the cost of
liquidation for Superior was $524.8 million, but DRR noted in its Failing Bank Case that it had
not reviewed and assigned losses to all balance sheet accounts in making the estimates. To
further illustrate, DRR resolutions staff did not complete valuations for the servicing assets in
Superior's New York facility, which represented about one-half of Superior's assets. DRR
officials told us that DRR had to quickly complete its analyses and prepare the Failing Bank
Case because action needed to be taken to close the institution due to its critically
undercapitalized state and liquidity problems. Therefore, DRR did not have complete
information to develop all possible resolution alternatives to make the least cost recommendation
for Superior's resolution. When DRR is limited in considering all possible resolution options,
the FDIC is at risk for not fully complying with the FDICIA least cost determination
requirements, and the quality of the least costly decision-making process is compromised.

Documentation of the Elements of the Cost Test Summary

DRR adequately documented, in its Failing Bank Case, its source for the asset and receivership
liability/claim balances and the deposit premium that it anticipated receiving upon the sale of the
deposit franchise. However, DRR did not have complete documentation to support the
assumptions used to estimate the loss on assets, a loss value that was instrumental in projecting
the cost of Superior’s failure to the deposit insurance fund.

DRR recommended the least cost resolution method in a format referred to as the Cost Test
Summary, an attachment to the Failing Bank Case that shows the estimated loss to the insurance
fund for each of the resolution alternatives considered. Appendix VI of our report presents a
general discussion of the process that DRR used to develop the Cost Test Summary for
Superior's resolution and describes how the estimated loss to the insurance fund was determined
for the conservatorship option.



                                                  9
We traced the gross assets and the receivership claims noted in the Cost Test Summary to
Superior's general ledger and concluded that the amounts in the Cost Test Summary agreed to
Superior’s general ledger. We also traced DRR's estimates for the deposit premiums for each
alternative considered to DRR's analysis of historical deposit premiums received in FDIC
resolutions since 1999 as well as to completed branch sales conducted in the private sector. We
concluded that the documentation to support DRR’s estimated deposit premium was adequate
and in compliance with FDICIA.

However, DRR did not adequately document the asset loss estimates used in the Cost Test
Summary. DRR resolutions staff estimated that the loss on $2.4 billion in assets would
approximate $753 million. Because DRR was not able to complete the AVR process, the loss
assumptions made for Superior's assets were based on the professional judgment of DRR
resolutions staff and preliminary analysis of certain asset data, rather than the statistically valid
assumptions and file reviews that would be included in a completed AVR process.

Table 1 shows the breakdown of the estimated loss and the OIG's basis for determining that the
estimated loss was not adequately supported.

Table 1: Explanation for Unsupported Estimated Loss Amount

 Estimated          Percentage of
   Loss                 Total                                          Explanation
  Amount            Loss Estimate
 $491 million            65%             Loss estimates for single-family mortgage loans, residual
                                         interests, and mortgage servicing rights were based on staff
                                         estimates that were documented in a memorandum but were
                                         not fully supported by data or analysis.
 $261 million             34%            Loss estimates for certain assets 14 were supported by a
                                         spreadsheet, but DRR could not support the numbers found
                                         on the spreadsheet with data or analysis.
     $ 1 million           1%            Loss estimate for receivables was not supported by either
                                         staff estimates or a spreadsheet.
 $753 million      100%                  Total Loss Amount Presented to the FDIC Board
Source: OIG Analysis

A DRR Resolutions and Receiverships Specialist assigned to Superior prepared a memorandum
to the file on July 30, 2001, 5 days after the Failing Bank Case was submitted to the FDIC Board.
DRR provided this memorandum as its documentation of the process used to develop the
estimates. According to the memorandum, DRR staff estimated the losses for single-family
mortgage loans, residual interests, and mortgage servicing rights. DRR assigned loss

14
  The asset categories were: deferred taxes; loans to subsidiaries; advances to trusts; corporate advances; capital
origination costs; FSLIC disputed; pipeline, clearing, and loans in process; escrow advances; investment in CFR97;
deferred principal payments; other advances; miscellaneous; institution premises and equipment; and prepaid
expenses .


                                                        10
percentages ranging from 30 percent to 50 percent to each of these three categories of assets,
which totaled nearly $491 million. The memorandum did not include any information, such as
historical analysis, discussion based on previous experiences, or any explanation supporting how
DRR staff arrived at these loss percentages.

The file memorandum stated that loss estimates for certain other assets, totaling $261 million,
were based on preliminary AVR results as presented in a spreadsheet attached to the
memorandum. The DRR specialist who works with the RAVEN system told us that there was
no “preliminary” AVR information since RAVEN will not accept incomplete data. Neither the
DRR specialist who works with the RAVEN system nor the IP/AVR Team Leader was able to
verify the numbers presented in the spreadsheet. While these numbers were carried forward to
the Cost Test Summary, the documentation to support the loss estimate on these assets was
incomplete.

Further, there was one asset, receivables, for which the loss estimate included in the spreadsheet
did not agree with the loss estimate used in the Cost Test Summary. DRR was unable to provide
an explanation for the difference. The difference, approximately $1 million, was immaterial to
the results of the Cost Test Summary. When DRR is unable to fully document its least cost
recommendation, the FDIC is at risk for not fully complying with FDICIA documentation
requirements.

DRR’s Request for Full Access to Superior Prior to Its Closure

In late March 2001, DRR began its initial planning for involvement at Superior even though the
institution was not notified by OTS that it was critically undercapitalized. DRR worked out an
arrangement with DOS for two staff members to initially start working from the FDIC's Chicago
South Field Office to begin gathering information about Superior under the information sharing
agreement that it had with DOS. DRR's March 2001 determination that it needed to begin
contingency planning for a potential failure of Superior was derived based on the projections that
Superior would be at best critically undercapitalized after the OTS/DOS examination that was in
progress. DOS had been sharing information with DRR about Superior since early March 2001.
While in the FDIC's Chicago South Field Office, DRR became increasingly concerned that until
a complete resolution crew could be onsite at Superior, DRR would not be able to complete the
process required for an orderly resolution. Therefore, on April 19, 2001, DRR staff held a
conference call with officials from DOS and OTS. During that call, the following points were
discussed:

•    DRR explained to OTS the resolution process and the general time requirements for DRR to
     complete the process required for an orderly resolution;
•    DRR requested full access for a complete resolution team to be onsite at Superior;15
•    DRR requested that its resolution process be able to run parallel to the OTS/DOS
     examination so that if the institution were found to be insolvent at the conclusion of the

15
   Although DRR staff told us that ideally, they would have preferred assigning 28 resolutions personnel to
Superior, our review of OTS's notes from that conference call indicate that DRR requested 15 resolutions personnel
to be assigned at the beginning of the process.


                                                        11
     examination, DRR would be prepared for a more rapid resolution (as opposed to the usual 90
     days); and
•    DRR requested information about the fixed assets of the institution and the activity
     performed at each location in order to prepare the IP.

OTS stated that DRR would only be allowed to start the formal resolution process if Superior
reflected a critically undercapitalized position in its quarterly financial statement that was due
for submission on April 30, 2001. OTS's position was based on the legal requirement found
under the PCA provisions of FDICIA which state that the resolution process shall begin when an
institution becomes critically undercapitalized. See 12 USC 1831o(h). OTS was concerned that
Superior’s officers could leave the employment of the institution and could testify in future legal
proceedings that OTS caused the failure. Instead of granting access for a complete resolution
team, OTS granted access for three DRR resolutions staff on April 23, 2001 to begin gathering
additional information to prepare for on-site work with a complete resolution team even though
Superior was not deemed to be critically undercapitalized by OTS, under PCA. On May 7,
2001, OTS allowed access for three more DRR staff, bringing the total DRR staff size to six.

Although DRR was permitted to be onsite at Superior, all information requests were to go
through OTS to Superior, and DRR staff was not permitted to deal directly with Superior
personnel. According to DRR personnel, the pace of receipt of information from the institution
was slow. Further, OTS placed limitations on the type of information that DRR could request
from Superior personnel. For instance, OTS did not grant DRR's request for the information on
fixed assets and the activities performed at each of Superior's locations for marketing purposes,
citing that a request of this nature could alert Superior’s management and employees that the
resolution process had begun.

While OTS was discussing access issues with DRR, OTS and the FDIC were working with
Superior’s owners on a plan to recapitalize the institution (capital restoration plan). OTS
approved the capital restoration plan on May 24, 2001, and Superior's owners were required to
implement the plan no later than July 23, 2001. 16 DRR’s staffing at Superior remained at six
until July 23, 2001, 4 days prior to the failure, and 1 day prior to OTS's notification to Superior
that it had failed to implement the capital restoration plan, and was considered "critically
undercapitalized" for purposes of the PCA provisions of FDICIA.

During the time that the six DRR personnel were onsite at Superior, DRR was able to begin
preparing the IP and the AVR. However, neither of these documents was completed before the
institution failed. DRR officials told us that they explained to OTS that resolutions staff had
previously worked in numerous financial institutions with bank examiners during the course of
their bank examinations and could work jointly with the examiners with direct access to
institution personnel without disruption to bank operations. Further, DRR staff explained to
OTS that there had been numerous times where DRR had performed its entire resolution process
by the time an institution had consummated a recapitalization, and in those cases the institution

16
  Although the FDIC expressed concern over several aspects of the capital restoration plan, and conveyed these
concerns to OTS prior to OTS's approval of the plan, the FDIC did not object to the OTS's approval of the final plan.


                                                         12
never failed. In order to determine whether DRR's assertion could be substantiated, we reviewed
DRR’s on-site resolution activities for 22 financial institutions (excluding Superior) from
January 2000 to October 2001 to determine the number of occurrences where the troubled
financial institution did not fail. We found that 12 of the 22 institutions (55 percent) for which
DRR performed on-site resolution work did not subsequently fail. Assets for the 12 institutions
totaled $5.1 billion. Of the 10 institutions that ultimately did fail, only one was an OTS-
regulated institution, with assets totaling $34 million.

From May 2001 through the date of Superior's failure, the six DRR resolutions staff identified
Superior’s assets and liabilities, attempted to balance and reconcile accounts among multiple
general ledgers, gathered information for the IP, and began the valuation process for the asset
files located in Chicago. This process was complicated because Superior only prepared quarterly
financial statements. Having quarterly financial statements instead of daily or monthly financial
statements made it difficult to reconcile financial transactions to arrive at Superior's current
financial position. DRR submitted its documentation request through the DOS/OTS examiners
upon entering the institution. However, according to DRR staff, the information that was
received by DRR required direct clarification from institution staff due to the complexities of the
institution's operations and assets. Because DRR was denied direct access to Superior's staff,
DRR instead pursued clarification and follow-up through an intermediary, which, according to
DRR, was cumbersome. DRR did not obtain a complete list of the properties utilized by the
institution for its activities, complete an organization chart of the institution and its affiliates, or
determine the activities performed between the entities and the locations of each. Further, DRR
resolutions staff did not begin the valuation process for the loan servicing assets in Superior's
New York facility, which represented about one-half of Superior's assets.

Additionally, DRR could not complete the following tasks of the AVR process:

        •   Verify the accuracy and completeness of the electronic download of loan information
            received from Superior;
        •   Select a statistical sample of loans for which to perform an AVR;
        •   Review asset files for the sampled loans since the loan files were housed in New
            York; or
        •   Obtain information on each loan's book value, appraised value, income data, and
            note terms.

According to DRR, the resolution team did not complete these valuation activities because of the
limitations placed on DRR by OTS. DRR explained that OTS officials did not specifically deny
DRR physical access to Superior’s New York facility, but because OTS officials limited the
number of DRR staff to six, it was more efficient for the six staff to continue working in Chicago
to prepare the IP. The IP is the first priority task in the resolution process and is needed for the
marketing of a failing institution.

OTS was not obligated to allow DRR to begin the resolution process when DRR first requested
access in April 2001, yet OTS permitted access with limitations. At that time OTS had not
notified Superior that it was critically undercapitalized. Once OTS did notify Superior of its


                                                  13
capital insolvency, as required by PCA, a rapid resolution was necessary due to Superior's
inability to maintain liquidity. Under PCA, the formal resolution process begins upon the PFR's
notification to an institution that it is critically undercapitalized. If the FDIC had waited until the
date of OTS's notification to Superior to start the formal resolution process, then DRR would
have had 1 day to gather and analyze information to support the least cost recommendation that it
presented at the July 25, 2001 FDIC Board meeting.

The Supervisory Resolutions and Receiverships Specialist, DRR, told us that, had the OTS not
limited the number of staff, DRR ideally would have assigned a team of 22 resolutions staff to
Superior’s New York facility to prepare the IP and AVRs in addition to the 6 staff working in
Chicago. We analyzed DRR’s on-site resolution activities at 22 financial institutions to
determine whether DRR’s request for 28 staff to work onsite at Superior was logical and
consistent with other resolution cases handled by DRR in the past. DRR was able to complete
the required financial analyses (IP and AVRs) for 12 of the 22 institutions while onsite at the
institution. On average, DRR demonstrated that it completed the financial analyses for the 12
institutions with a staff of 11 people working onsite. The average asset balance for these 12
institutions was $18 million. Given the size of Superior, DRR’s request for a full staff of 28
resolutions personnel to complete the required financial analyses for an orderly resolution of a
failing institution with $2.4 billion in assets appears to be logical.

On May 3, 2001, DRR resolutions personnel formally communicated their concerns regarding
the need for a complete resolution team to be onsite at Superior to the Director, DRR. The
Director, DRR said he communicated the concern to FDIC senior management officials at
subsequent meetings, which led to discussions with the FDIC Director. During our interview
with the FDIC Director, he stated that at the time he was not unduly concerned that DRR did not
get the access to Superior that it had requested. He noted that both OTS and the FDIC were
relying on the owners of Superior to implement the capital restoration plan.

Through our interviews with DRR and OTS senior officials, we learned that DRR and OTS
define “access” to a failing financial institution differently. DRR views access as having a
sufficient number of staff, commensurate with the size and complexity of the institution, working
onsite at the institution to review appropriate records and obtain additional information from
institution personnel in order to plan for the orderly resolution of the failing institution. OTS, at
least in the case of Superior, felt that it had granted DRR access to Superior when OTS agreed to
allow 3 DRR staff into the institution under temporary examiner designations on April 23, 2001,
3 months before OTS closed the institution.

We discussed DRR’s assertion of limited access to Superior with the Managing Director,
Supervision, OTS (OTS Managing Director) who told us that OTS did not deny DRR access to
the institution, including Superior’s New York facility. The OTS Managing Director recognized
that OTS did set limitations on the number of DRR staff allowed to work onsite at Superior, but
his recollection was that DRR had accepted the limitation and was getting the information that it
needed. Thus, the OTS Managing Director did not believe that OTS denied DRR access to
Superior. The Director, DRR, told us that DRR did not have the full, unfettered access to
Superior’s records and personnel that DRR needed to adequately prepare for resolving the


                                                  14
institution. The Director, DRR further expressed the view that filtering documentation to DRR,
limiting DRR’s contact with Superior personnel, and restricting the size of DRR’s resolution
team are actions that do not constitute granting “access” to an institution for the purposes of
conducting resolution activities.

Appropriateness of DRR's Policies and Procedures for Superior's Resolution

DRR does not have sufficient guidance to meet the least cost requirement and develop a Cost
Test Summary in situations where an IP and AVR cannot be completed prior to an institution's
closure. In situations where complete IP/AVR information is not available to DRR because of
liquidity or fraud concerns, DRR's current policy is to follow the Research Model which uses
data from the institution’s Call Reports and standard loss coefficients to estimate the loss on
assets. However, DRR guidance states that the Research Model is not appropriate for institutions
with more than $100 million in assets. Superior was in this category, with assets totaling $2.4
billion.

As explained in the Least Cost Test Manual, the least cost test is used to analyze and compare
bids submitted for failing institutions. While FDICIA does require DRR to choose the least
costly resolution scenario, (see 12 USC 1823(c)) the law does not require the use of the Least
Cost Test model (LCT model). There is no guidance in the Least Cost Test Manual about
situations in which neither the Research Model nor the LCT model is appropriate.

In September 1998, the FDIC developed a Large Bank Contingency Plan (the Plan) in an effort
to provide a strategy for resolving a large institution, defined as having assets over $1 billion.
The Plan states that the resolution should be the least costly alternative to the insurance fund and
assumes that any failing institution with $1 billion or more in assets would, in most cases, result
in the creation of a bridge bank in order for the FDIC to have adequate time to analyze and
evaluate the bank’s assets and liabilities. The Plan further states that for failing savings
associations, the FDIC would use the conservatorship approach for resolving the institution. The
Plan includes a provision that the resolution team should complete the IP/AVR process for the
failing institution to determine the resolution structure to be used. However, the Plan does not
provide guidance on how to determine whether a bridge bank or a conservatorship is the least
costly alternative in situations where the IP/AVR process cannot be completed.

During the course of our audit, DRR initiated a project to combine its Bridge Bank Manual and
the Conservator’s Operating Manual to establish policies and procedures for bridge banks and
conservatorships for the purpose of resolving failing financial institutions. We reviewed both
manuals and determined that neither manual provides guidance on how to determine the least
costly alternative in situations where the IP/AVR process cannot be completed. The
Conservator's Operating Manual provides guidance for operating a conservatorship after the
conservatorship has been established. The Bridge Bank Manual includes provisions for
establishing, operating, and selling a bridge bank. Although the Bridge Bank Manual discusses
the least cost analysis to be performed to determine the probable cost of a bridge bank, the
manual directs that in situations where an AVR is not available, the Research Model should be
used to determine the estimated market value of the assets. However, as previously mentioned,


                                                 15
the use of the FDIC’s Research Model is not appropriate for large institutions with total assets
over $100 million. Therefore, DRR's policies and procedures in place are not appropriate for
determining the least costly alternative for financial institutions in situations where the IP/AVR
process cannot be completed for institutions with assets over $100 million. In its effort to
combine the Bridge Bank Manual and the Conservator’s Operating Manual, DRR should address
this lack of guidance.

In cases where the IP/AVR process cannot be used, DRR should incorporate into its written
policies GAO's general documentation criteria specifying the support necessary to adequately
document its least cost resolution recommendations made to the FDIC Board. Additionally,
DRR should ensure that all documentation is prepared prior to the presentation of the least cost
recommendation to the FDIC Board.

Value of Information Sharing Arrangement with DOS and the Office of the Comptroller of
the Currency

The FDIC issued Circular 7000.1, DOS/DRR Information Sharing for Failing Institutions, on
December 3, 1999, to establish formal procedures between DOS and DRR for collecting and
sharing information on insured financial institutions that appear likely to fail and to maintain
open communication between DOS and DRR. Circular 7000.1 includes a requirement that DOS
provide DRR staff timely, relevant access to failing institution information routinely and ad hoc
when warranted by a specific situation or case, such as a projection that an institution will soon
become critically undercapitalized.

By issuance of a memorandum dated August 31, 2000, from the Deputy Director, Franchise and
Asset Marketing Branch, DRR implemented a pilot program with the OCC to facilitate
information sharing and grant DRR early access to the books and records of failing financial
institutions regulated by the OCC. DRR invited OTS to participate in the pilot program, but
according to DRR, OTS was not receptive to a formal arrangement with DRR for information
sharing.

DRR initiated the pilot program for information sharing with the OCC due to the benefits
derived from DRR’s information exchange agreement with DOS. DRR stated that the
implementation of Circular 7000.1 helped it gain access to failing bank information earlier than
it had in the past, resulting in improved resolution planning and ultimately lower cost
transactions. The OCC issued a memorandum dated August 16, 2000 to its District and Large
Bank Deputy Comptrollers, Assistant Deputy Comptrollers, Large Bank Examiners-In-Charge,
and all examining personnel outlining the provisions of the information access pilot program
with DRR. The memorandum provides that, for any national bank rated a “4” or “5”, or where
OCC examiners anticipate assigning a composite CAMELS rating of “4” or “5”, the OCC will
invite DRR to join the examiners prior to the completion of the examination at the bank to gather
preliminary resolution information.

In its August 16, 2000 memorandum, the OCC acknowledged that DRR generally received
access to a failing national bank’s information at the time the bank was notified that it was


                                                16
critically undercapitalized or when otherwise authorized by the OCC. This typically provided
DRR with 90 days to collect sufficient information and complete the resolution preparation
process. However, the OCC recognized that liquidity, fraud, or other circumstances could
necessitate closure of a bank on an expedited basis, resulting in little or no time for DRR to
obtain needed information or otherwise prepare for the institution’s closing. In such
circumstances, an early understanding by DRR of an institution’s corporate structure, type of
accounting system, location of records, asset and liability structure, and nature of subsidiaries,
can help facilitate the resolution process. Accordingly, to accommodate DRR’s unique
information needs, the OCC entered into the pilot program with DRR.

In situations where institutions must be closed in an expedited manner, resolution options may be
limited, resulting in few, if any, bids for the franchise, delays in making insured depositors’
funds available, and higher costs to the deposit insurance fund. Delays in resolving failed
financial institutions could also affect the public’s confidence in the insurance fund. If DRR and
OTS had established an arrangement for information sharing similar to the arrangements DRR
has with DOS and OCC, DRR might have had sufficient information to plan and execute a more
orderly resolution for Superior prior to its closure.

DRR’s Initiatives for Improving the Resolution Process

DRR’s 2002 Strategic Plan (DRR Strategic Plan) outlines the mission and goals that DRR will
seek to achieve during 2002. One goal for DRR's resolutions program is to value, manage, and
market assets of failed institutions and their subsidiaries in a timely manner to maximize net
return. To enable DRR to meet this goal, DRR’s objective is to develop a program and
procedures to implement a “Lessons Learned” addendum to its Resolutions Policy Manual.
Completion of this objective would allow DRR to document and retain appropriate background
information concerning unique situations encountered from each resolution for future reference
or presentation purposes. For example, DRR could document information regarding the
resolution strategies that worked or the type of data needed when dealing with a failing
institution that has a credit card portfolio or a large amount of subprime loans.

DRR developed an action plan that calls for establishing a working group by January 31, 2002,
and updating the Resolutions Policy Manual by November 30, 2002. DRR should use the
lessons learned from the Superior resolution, particularly in the area of timely and appropriate
access to failing institution information, as it updates its guidance.

RECOMMENDATIONS

We recommend that the Director, DRR:

(1) Pursue a formal information sharing agreement with OTS so that DRR can gather
    information necessary to plan for an orderly resolution and provide the FDIC Board with
    complete and reliable information on which to base its least cost decision.

(2) Ensure that all assumptions used to estimate the loss to the insurance fund and used by the
    FDIC Board for decision-making purposes are documented in accordance with FDICIA, as


                                                 17
   well as the general documentation guidance prescribed by the GAO and provided within this
   report, and that this documentation is prepared in advance of the Board's decision.

(3) Develop internal policies and procedures that would provide DRR with guidance on how to
    prepare a Cost Test Summary when the LCT model or Research Model is not applicable.

(4) Include lessons learned from the Superior resolution, especially in the area of timely and
    appropriate access to a financial institution’s information, in DRR’s proposed Lessons
    Learned study concerning unique situations encountered from DRR’s resolution activities.


CORPORATION COMMENTS AND OIG EVALUATION

The Deputy Director, DRR, provided a written response, dated January 29, 2002, to the draft
report. The response is presented in Appendix VIII to this report.

The Corporation generally concurred with all four recommendations. These recommendations
will remain undispositioned and open for reporting purposes.

In its response, DRR made the following comment regarding the $400 million loss estimate for
residual interests that was included in the $491 million referred to in Table 1 of our report:

       "DRR's Washington's Capital Markets Group prepared a loss estimate on
       Superior's residual assets. This analysis was documented thoroughly and
       used by DRR analysts in preparing the least-cost test."

During our fieldwork, we reviewed DRR's analysis referred to in DRR's response. This analysis
showed an estimated loss rate that differed from the 50 percent estimated loss rate that DRR
documented in the Cost Test Summary. Further, the value of the residual interests changed
between the time that the analysis was completed and the time that the Cost Test Summary was
prepared. During the draft report review phase of our audit, DRR explained that this analysis
formed the basis of DRR's estimation of the loss on residual interests for purposes of the least
cost test analysis. However, DRR did not provide us with any documentation to support how the
results of that analysis factored into the 50 percent loss estimate reported for the residual
interests in the Cost Test Summary.




                                               18
                                                                                       APPENDIX I




                               SCOPE AND METHODOLOGY

Scope

Our work included the evaluation of the least cost resolution recommendation for the resolution
of Superior Bank, FSB (Superior) that was made by DRR on July 25, 2001 and the
documentation to support that recommendation. The Office of Thrift Supervision (OTS) closed
Superior on July 27, 2001. Our work also included an evaluation of the liquidation of those
assets that were not transferred to the conservatorship and remained with the pass-through
receivership (PTR). At the time of its failure, Superior had assets totaling nearly $2.4 billion. Of
that amount, approximately $2.2 billion was transferred to the conservatorship while the
remainder transferred to the PTR.

We relied on DRR's Information Package (IP) to determine the validity of asset and liability
balances used in the least cost test. DRR used information from Superior's general ledgers to
prepare the IP. We did not perform a formal reliability assessment of the computer-processed
data in Superior's general ledger. We verified that the information in the IP agreed to the general
ledgers. We did not find errors that would preclude the use of the IP to meet the audit objectives
or that would change the conclusions in the report.

Methodology

To gain an understanding of the various resolution methods and to obtain an overview of the
resolutions process, we reviewed:

•   Managing the Crisis: The FDIC and RTC Experience - a publication dated August 1998 that
    documents the results of a study conducted by the FDIC on the banking crises of the 1980s
    and 1990s;
•   Resolutions Policy Manual - a DRR manual dated April 18, 2001 that provides overall
    resolution policies and general procedures for "typical” resolution activities;
•   Large Bank Contingency Plan - an FDIC manual dated September 10, 1998 that provides the
    FDIC with a plan for resolving a large failing institution with assets over $1 billion and
    assumes that any large failing financial institution with assets of $1 billion or more will in
    most cases result in the creation of a bridge bank in order for the FDIC to have adequate time
    to analyze and evaluate the bank’s assets and liabilities; and
•   Bridge Bank Manual - an FDIC manual dated November 30, 1995 that documents guidelines
    for management and operation of bridge banks.

We reviewed the Resolution Trust Corporation’s Conservator's Operating Manual dated January
1992 to determine the extent of guidance that is provided for establishing a conservatorship as a
least cost decision. The Assistant Director, Institution Sales, DRR, told us that the January 1992
version is the most recent edition of the manual.

To determine whether DRR considered all possible resolution methods in determining the least
costly resolution for Superior, we:


                                                19
                                                                                       APPENDIX I




• Reviewed the Failing Bank Case, dated July 25, 2001,
• Reviewed relevant FDIC Board Meeting minutes, and
• Interviewed DRR officials to obtain their input into the decision-making process.

To evaluate whether DRR adequately documented the evaluations made and assumptions used
to arrive at the least cost decision, we:

• Obtained a copy of the Cost Test Summary, an attachment to the Failing Bank Case, dated
  July 25, 2001 and compared the asset and liability balances to Superior's general ledger and
  to the Information Package;
• Reviewed DRR's documentation to support the assumptions used to estimate the expected
  deposit premium and the loss on asset estimates for the resolution alternatives considered.
  This documentation consisted primarily of historical analysis, memoranda to the file, and an
  electronic spreadsheet that listed loss estimates assigned to specified asset categories; and
• Tested DRR's historical analysis of deposit premiums actually received to determine whether
  the results of the analysis were reasonable.

We selected a judgmental sample of estimated losses on assets to verify against supporting
documentation. Our sample was designed to test a high percentage of the asset balances
as well as to cover a high percentage of the total asset loss estimate. Our sample included the
following asset categories:

       •   Single-family mortgage loans;
       •   Residual interests;
       •   Mortgage servicing rights;
       •   Capital origination costs; and
       •   Pipeline, Clearing, and Loans in Process.

In order to establish our criteria, we reviewed provisions of the Federal Deposit Insurance
Corporation Improvement Act of 1991 (FDICIA) that pertain to:

       •   Prompt corrective action, 12 USC 1831o, (See Appendix VII), and
       •   Least cost resolution, 12 USC 1823(c), (See Appendix V).

We reviewed an audit report issued by the United States General Accounting Office (GAO)
regarding the FDIC's decision to place an institution into conservatorship and determined
whether GAO offered additional guidance to the FDIC regarding compliance with the least cost
decision-making process (GAO/GGD-92-92 dated July 7, 1992).

To determine whether DRR had adequate internal policies established to assist in the least cost
decision-making process, we interviewed DRR officials responsible for preparing the input to the
Cost Test Summary, and we reviewed the following guidance generated within DRR:



                                                20
                                                                                    APPENDIX I




•   Resolutions Policy Manual as of April 2001
•   Least Cost Test Manual as of June 2001, and
•   Large Bank Contingency Plan dated September 1998.

We reviewed DRR's Strategic Plan for 2002 to determine whether DRR had established any
goals or developed an action plan related to the resolution process.

We analyzed DRR's resolution caseload for the period January 2000 through October 2001, to
determine the:

•   average staff size assigned to resolutions,
•   average time that DRR needed to complete the IP and AVR in order to plan and prepare for
    orderly resolutions, and
•   number of occurrences where the institutions did not fail.

To determine whether DRR had adequate internal policies established to assist in the liquidation
of the assets that remained in the PTR, we reviewed the DRR's Asset Disposition Manual, which
is a compilation of best business practices that is used as guidance for a variety of asset
categories. We interviewed DRR staff responsible for preparing the PTR assets for liquidation
and determined whether DRR's actions were in compliance with its policy.

In order to gain an understanding of DRR's efforts to gain earlier access into Superior, we
reviewed correspondence and interviewed officials from OTS and DRR - headquarters, and
resolutions personnel from DRR-Dallas. We also interviewed the FDIC Director regarding his
views related to DRR's access to Superior.

We performed our work at the FDIC's and OTS's offices in Washington, D.C. and at Superior's
headquarters in Oakbrook Terrace, Illinois from August 2001 through November 2001. On
January 22, 2002, we met with OTS officials to discuss our draft report presentation of DRR’s
request for access to Superior and the extent to which OTS granted DRR access to Superior’s
records and personnel. We held an exit conference with DRR on January 22, 2002 to discuss
findings and recommendations in our draft report. We conducted the audit in accordance with
generally accepted government auditing standards.




                                              21
                                                                                       APPENDIX II




                                           GLOSSARY


Asset Valuation Review (AVR)
Process that estimates the value of assets to the FDIC as Receiver of the failing institution. The
AVR compares the book value of assets to the estimated recovery values to help determine the
projected net loss to the FDIC.

Bridge Bank
A resolution strategy available to the FDIC, under authority provided by the Competitive
Equality Banking Act, where a temporary banking structure is established for large banks with
complex financial structures that are in danger of failing. A national bank chartered by the
Office of the Comptroller of the Currency and controlled by the FDIC, a bridge bank is designed
to take over the operations of a failing bank and maintain banking services for the customers. A
temporary bridge structure provides the FDIC time to take control of a failed bank's business,
stabilize the situation, and determine an appropriate permanent resolution. It also enables the
FDIC to gain sufficient flexibility for reorganizing and marketing the institution. Bridge banks
operate in a similar manner with conservatorships and have the same purpose. See 12 USC
1821(n).

CAMELS Rating
The FDIC and other financial institution regulators use the Uniform Financial Institutions Rating
System (UFIRS) to evaluate a bank's performance. Areas of finance, management, and
compliance are evaluated and given a numerical rating of "1" through "5", with "1" having the
least concern and "5" having the greatest concern. The performance areas, identified by the
CAMELS acronym, are: Capital Adequacy, Asset Quality, Management, Earnings, Liquidity and
Sensitivity to Market Risk.

Capital Restoration Plan
Under the PCA provisions of the Federal Deposit Insurance Corporation Improvement Act of
1991 (FDICIA), as codified at 12 USC 1831o, a capital restoration plan is required for
institutions deemed to be undercapitalized by the appropriate regulatory agency. The plan shall
specify the steps the insured depository institution will take to become adequately capitalized;
the levels of capital to be attained during each year in which the plan will be in effect; how the
institution will comply with the restrictions or requirements then in effect under the PCA
provisions; and the types and levels of activities in which the institution will engage.

Conservator
A person or entity, including a government agency, appointed by a regulatory authority to
operate a troubled financial institution in an effort to conserve, manage, and protect the troubled
institution’s assets until the institution has stabilized or has been closed by the chartering
authority. See 12 USC 1821(c).

                                                 22
                                                                                         APPENDIX II




Conservatorship
A legal procedure and resolution strategy available to the FDIC, under authority provided by
FIRREA, for the interim management of financial institutions. Under the pass-through
receivership method, after the failure of a savings institution, a new institution is chartered and
placed under agency conservatorship; the new institution assumes certain liabilities and
purchases certain assets from the receiver of the failed institution. Under a straight
conservatorship, the FDIC may be appointed conservator of an open, troubled institution. The
conservator assumes responsibility for operating the institution on an interim basis in accordance
with applicable laws of the federal or state authority that chartered the new institution. Under a
conservatorship, the institution’s asset base is conserved pending the resolution of the
conservatorship. See 12 USC 1831o(h).

Critically Undercapitalized
The most severe category within the PCA used to describe the capital adequacy of an institution.
For an institution to be deemed critically undercapitalized, the tangible capital to total assets ratio
is equal to or less than 2 percent. See 12 USC 1831o.

Deposit Premium
The amount a bidder is willing to pay above the value of an institution’s insured deposits.

Financial Institutions Reform, Recovery, and Enforcement Act (FIRREA)
Legislation that established the Resolution Trust Corporation and the Oversight Board of the
RTC as instrumentalities of the United States. Enacted by Congress on August 9, 1989, FIRREA
revised the structure of the deposit insurance system creating a new Bank Insurance Fund (BIF)
and a Savings Association Insurance Fund (SAIF), both of which were to be administered by the
FDIC. FIRREA gave the FDIC the authority to appoint itself as sole conservator or receiver of
any insured state depository institutions, provided certain criteria were met. See 12 USC 3332 et
seq.

Information Package (IP)
The Information Package provides a description, in financial terms, of the failing institution's
assets, liabilities, and business on a specific date with supporting schedules. This product,
developed by DRR, Franchise Marketing, is used as a marketing tool to help potential acquirers
decide if they are interested in a transaction with the FDIC to resolve a failing institution.

Least Cost Resolution
A determination required under 12 USC 1823(c) for the FDIC to implement the resolution
alternative that is determined to be least costly to the relevant deposit insurance fund of all
possible resolution alternatives, including liquidation of the failed institution.

Liquidation
The winding down of the business affairs and operations of a failed insured depository institution
through the orderly disposition of its assets after it has been placed in receivership.
                                                  23
                                                                                                 APPENDIX II




Office of the Comptroller of the Currency (OCC)
A bureau within the U.S. Treasury Department, established in 1863. The OCC charters,
regulates, and supervises national banks, which can usually be identified because they have the
word "national" or "national association" in their names. It also supervises the federal branches
and agencies of foreign banks.

Office of Thrift Supervision (OTS)
The office within the U.S. Department of the Treasury that has responsibility for the overall
supervision, regulation, and examination of federally chartered thrift institutions.

Pass-Through Receivership (PTR)
Method used by the OTS to transfer the assets and liabilities of a failed thrift to a newly
chartered institution placed in conservatorship. Under this method, the OTS closes the
institution, appoints a receiver, and passes the assets and liabilities of the failed thrift to the new
institution, which is then placed in conservatorship.

Prompt Corrective Action (PCA)
A provision of FDICIA, which amended the Federal Deposit Insurance Act by adding section 38,
codified at 12 USC 1831o. It establishes a framework for taking prompt supervisory actions
against insured banks that are not adequately capitalized. The following categories are used to
describe capital adequacy, in order of severity: (1) Well Capitalized, (2) Adequately Capitalized,
(3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.
Unless other action is determined to be appropriate, the primary regulator is required to close an
institution that is "critically undercapitalized" and unable to provide an adequate capital
restoration plan. The FDIC, as insurer, is required to resolve the institution in a manner least
costly to the deposit insurance fund.

Risk Analysis and Value Estimation (RAVEN)
A Microsoft® Visual FoxPro® 17 application used to statistically sample assets for valuation
pricing as part of the AVR process. RAVEN generates the IP and AVR reports.

Receiver
An agent (in the instance of a failed institution, the FDIC) appointed by a failed institution's
primary regulator to manage the orderly liquidation of a failed institution. See 12 USC 1821(c).

Receivership
The legal procedure for winding down the affairs of an insolvent institution. See 12 USC
1831o(h).


17 Microsoft ® and Visual FoxPro® are either registered trademarks or trademarks of Microsoft Corporation in the
United States and/or other countries.
                                                       24
                                                                                        APPENDIX II




Research Model
Created by the Division of Research and Statistics in the 1980s to estimate the loss in the assets
of a failing bank using historical statistical analysis of general asset categories. General loss
coefficients for the asset categories were developed but are not appropriate for use with large
institutions with total assets over $100 million or for institutions where fraud is discovered.
Estimates are based on Call Report data and can only be used to give the Board a rough estimate
of the potential loss.

Residual Interests
These interests represent claims on the cash flows resulting from the securitization process that
remain after all obligations to investors and any related expenses have been paid, which normally
include funds to build reserves and pay loan losses, servicing fees, and liquidation expenses.
When the loans for the pools originate, they bear a stated interest rate. The securities are issued
to investors at a lower rate than the stated rate on the loans. The difference between the rate that
the loans are paying versus what the pools are paying to investors is called the residual.

Resolution
A disposition plan for a failed or failing institution. It is designed to (1) protect insured
depositors and (2) minimize the costs to the relevant insurance fund that are expected from
covering insured deposits and disposing of the institution's assets. Resolution methods include
purchase and assumption transactions, insured deposit transfer transactions, and straight deposit
payoffs.

Resolution Trust Corporation (RTC)
An entity established in 1989 by FIRREA to oversee the resolution of insolvent thrifts and to
dispose of assets acquired from the failed thrifts in the wake of the thrift crisis of the 1980s. The
RTC operated from August 9, 1989, to December 31, 1995.

Standard Asset Value Estimation (SAVE) Methodology
Developed by an inter-divisional task force, established in 1995, a set of Corporation-wide,
common methodologies with respect to asset valuation. These value estimates are used in the
least cost test and the sale of assets at resolution, asset management and disposition decisions,
and for financial reporting. The SAVE Methodology contributes to the FDIC's mission goals of
insuring deposits and managing receiverships through the employment of a singular, valid,
legitimate, and defensible valuation method. In addition, its use enhances period-to-period and
purpose-to-purpose comparability and analysis of asset value estimates.

Standard Asset Value Estimation (SAVE) Methodology Board: In March 1999, DRR
established a SAVE Methodology Board. This policy group has jurisdiction over the SAVE
Methodology and is intended to serve as an on-going body to direct and support the periodic
review and assessment of issues related to its maintenance and implementation throughout the
various asset valuation processes in the Corporation. The objective of the board is to enhance
and maintain the asset valuation methodology, including assumptions, in a manner that is
responsive to market structure and organizational needs. When necessary, the board will aid in
                                                 25
                                                                                      APPENDIX II




process design. The SAVE Methodology Board consists of members from senior management
of DRR, Division of Finance, and Division of Insurance. The board reports to the DRR Director
and the three (3) Washington Deputy Directors who have authority to approve major policy
changes in this area.

Uninsured Deposit
The portion of any deposit of a customer at an insured depository institution that exceeds the
applicable FDIC insurance coverage for the depositor at that institution.




                                                26
                                                                                      APPENDIX III




                               DRR'S RESOLUTION PROCESS
                           (From DRR's Resolutions Policy Manual))


Four major functions occur in a typical resolution of a failing institution:

•   Planning and preparing for the resolution project,
•   Preparing the IP and conducting the AVR,
•   Marketing the failing institution, and
•   Selecting bids.

These resolution activities normally occur before the primary regulator closes the failing
institution, so that DRR can analyze the failing institution and plan for an orderly resolution.
This process works best when DRR has sufficient access to failing institution information before
the closing. A typical resolution due to a financial institution’s capital insolvency will extend for
a period of 90 days or less, following notification from the chartering authority, or the primary
federal regulator. PCA provisions of FDICIA require the appropriate federal banking authority or
the FDIC to close an institution within 90 days after determining that it is “critically
undercapitalized” and does not have an adequate capital restoration plan in place. See 12 USC
1831o. (Appendix VII).

Once the resolution period has begun, DRR requests an electronic download of the failing
institution’s loan and deposit databases that is entered into DRR’s Risk Analysis and Evaluation
Estimation (RAVEN) system before the start of on-site resolution work. RAVEN contains the
valuation assumptions used by DRR for each class of assets in a failing institution. These
assumptions are developed by the Standard Asset Value Estimation (SAVE) Methodology
Board, established in 1999 as an inter-divisional project to develop Corporation-wide, common
methodologies with respect to asset valuation. This ensures that categories of assets are valued
consistently from resolution to resolution. Once the failing institution’s loan information is
loaded into RAVEN and validated by DRR, this information is used to develop the samples used
to complete the AVR.

The AVR process carefully documents the valuation of the assets of a failing institution.
Assumptions are used to create valuation estimates where detailed information is not readily
available and may be used to validate the data in the asset files. Given time, staffing, and space
constraints, it is usually not possible or desirable to value all assets of a failing institution.
Consequently, the resolution team values a representative sample of the loans to provide a
statistically valid sample of the entire portfolio of loans. This asset information is then used to
complete the balance sheet information for the Least Cost Test (LCT).

The IP is a prospectus that provides a snapshot description, in financial terms, of the failing
institution’s assets, liabilities, and business on a specific date with supporting schedules. The IP
is also used to provide the liability section of the balance sheet for the LCT. Information for the
                                                    27
                                                                                                      APPENDIX III




IP is generally requested from the failing institution prior to DRR’s arrival and is in addition to
the electronic downloads needed for the AVR. Both the IP/AVR Team Leader and the Marketing
Specialist assigned to the resolution are required to review and agree to the data in the IP before
it is submitted to the Manager, Franchise and Asset Marketing, or Supervisory Resolution
Specialist for approval.

Once the IP and AVR are complete, DRR schedules an opportunity for interested potential
acquirers to learn more about the failing institution, transactions offered, legal documents, bid
acceptance, and regulatory approval process. DRR currently uses a secured Web site to present
this information. During the due diligence period, 18 DRR sets the bid deadline and notifies
potential acquirers. All bids are evaluated for the least cost transaction. DRR analyzes the bids
received, conducts a least cost determination, and recommends the least costly resolution
strategy to pursue.

DRR developed an LCT model, which determines the liquidation value of a failing institution
and compares bids to the liquidation value and to each other to determine the least costly
resolution method as required by FDICIA. The LCT model uses data from the IP and AVR to
value the assets and liabilities, selects from among the multiple bid combinations submitted for a
failing institution’s deposits and asset pools, and compares the resulting analysis with the cost of
liquidating the financial institution. The LCT model also estimates the additional costs of
resolving the financial institution’s liabilities in the bid combinations being compared.

In cases where complete IP/AVR information is not available to DRR because of liquidity or
fraud concerns, the FDIC developed the Research Model which uses data from the institution’s
Call Reports and historical loss percentages to calculate the loss on each asset category. DRR
guidance states that the Research Model is not appropriate for institutions with more than $100
million in assets. The Research Model was based on historical statistical analysis performed on
failed banks and loss coefficients for general asset categories for smaller banks, which were the
majority of past failures, and did not include data related to any failed institutions where fraud
was discovered.




18
  Due diligence is the bidder's on-site inspection of the books and records of the institution and the bidder's
assessment of the value of the assets and liabilities.




                                                          28
                                                                                                 APPENDIX IV




            DRR HAS MADE PROGRESS IN LIQUIDATING PASS-THROUGH
                           RECEIVERSHIP ASSETS

DRR has made some progress in liquidating assets that remained in the PTR. The PTR retained
$182.6 million of Superior assets, representing approximately 8 percent of total assets held by
Superior at closing. These assets consist of:

     § $114.8 million in receivables from subsidiaries ($77.5 million) and Coast to Coast
        Financial Corporation ($37.3 million);
     § $46.4 million for four owned branches and furniture, fixtures, and equipment on leased
        premises in New York, Chicago, and other locations;
     § $10 million of investment in subsidiaries;
     § $9.3 million in other assets; and
     § $2.1 million in owned real estate single-family properties.

The $77.5 million receivable from subsidiaries represents unsecured loans from Superior Bank.
DRR has not found any evidence that these loans are secured and suggests that this amount is not
collectable since the subsidiaries are insolvent. DRR plans to research these receivables further
before a determination is made to write these receivables off as a total loss. DRR expects to get
full recovery of the $37.3 million receivable from Coast to Coast Financial.

Included in the PTR are the institution's premises and furniture and fixtures that total
$46.4 million. DRR offered these assets to the winning bidder of the insured deposits as part of
its efforts to sell the deposit franchise. On October 31, 2001, the FDIC announced approval of
the sale of the branches and deposits of New Superior. The terms of the sale provided the
assuming institution with a 90-day option to purchase any of the bank-owned facilities, furniture,
fixtures, and equipment at fair market value. An option was also given to assume leases.

The $10 million of investment in subsidiaries consists primarily of equity in Lyons Funding.
DRR does not believe this amount is collectible and anticipates that this amount will be written
off.

DRR’s Asset Disposition Manual contains procedures for managing and disposing owned real
estate, including establishing budgets, arranging for on-site management of the property,
developing and implementing a marketing strategy, and preparing the property for sale. The
PTR retained 29 single-family properties valued at approximately $2.1 million. For 28 of these
properties, DRR has established budgets, ordered new appraisals and title commitments, and
contracted with FDIC brokers and property managers. 19 As of October 18, 2001, the FDIC had
sold three properties and had contracts pending on two additional properties. DRR is working to
resolve title and legal issues on the remaining properties. Once these issues are resolved, DRR

19
  The remaining property was an in-substance foreclosure in which the sale was confirmed by the Court in October
2001.
                                                      29
                                                                                       APPENDIX IV




plans to list the properties with brokers and attempt to dispose of them through the market. Any
properties not sold through a broker during the initial 180-day listing period will be included in a
sealed bid sale in the second quarter of 2002. DRR originally intended to have all of these
properties on the market and to have conducted a sealed bid sale by the fourth quarter of 2001.
However, given the title and legal issues, the FDIC has been unable to accomplish this.

The PTR also retained various other assets totaling $9.3 million. This amount consists of
miscellaneous receivables, prepaid expenses, and deferred taxes that are being administered by
DRR.

Because DRR is making sufficient progress on the liquidation of PTR assets, we are not making
any recommendations at this time. We will continue to track DRR’s progress and will report
these results in our ongoing audit of the marketing and final resolution of New Superior.




                                                 30
                                                                                          APPENDIX V




 FEDERAL DEPOSIT INSURANCE CORPORATION IMPROVEMENT ACT OF 1991
                     LEAST COST RESOLUTION


Section 141 of the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA),
codified at 12 USC 1823(c), discusses the least cost resolution and the documentation
requirements of the least cost determination. Relevant excerpts follow:

(4) Least-cost resolution required -

   (A)   In general. - Notwithstanding any other provision of this Act, the Corporation may not
         exercise any authority under this subsection or subsection (d), (f), (h), (i), or (k) of this
         section with respect to any insured depository institution unless
         (i)     the Corporation determines that the exercise of such authority is necessary to
                 meet the obligation of the Corporation to provide insurance coverage for the
                 insured deposits in such institution; and
         (ii)    the total amount of the expenditures by the Corporation and obligations incurred
                 by the Corporation (including any immediate and long-term obligation of the
                 Corporation and any direct or contingent liability for future payment by the
                 Corporation) in connection with the exercise of any such authority with respect
                 to such institution is the least costly to the deposit insurance fund of all possible
                 methods for meeting the Corporation's obligation under this section.

   (B)   Determining least costly approach. - In determining how to satisfy the Corporation's
         obligations to an institution's insured depositors at the least possible cost to the deposit
         insurance fund, the Corporation shall comply with the following provisions:
         (i)   Present-value analysis; documentation required. - The Corporation shall -
               (I)     evaluate alternatives on a present-value basis, using a realistic discount
                       rate;
               (II)    document that evaluation and the assumptions on which the evaluation is
                       based, including any assumptions with regard to interest rates, asset
                       recovery rates, asset holding costs, and payment of contingent liabilities;
                       and
               (III) retain the documentation for not less than 5 years.




                                                 31
                                                                                      APPENDIX VI




                DRR'S DEVELOPMENT OF THE COST TEST SUMMARY
                             FOR SUPERIOR BANK


Using Superior's general ledger information, DRR determined that gross assets from the
institution totaled nearly $2.4 billion, which included cash and securities. Using preliminary
valuations and staff estimates, DRR determined that the estimated loss on the sale of those assets
was approximately $753 million. (To learn more about the tools that DRR typically uses to value
assets in order to estimate the loss and to document the valuation process, please refer to
Appendix III where DRR's resolution process is discussed.)

In the narrative discussion section of the Failing Bank Case, DRR described the assumptions
used to develop its estimates of deposit franchise premium. DRR estimated that the deposit
franchise premium received would be between 5 percent and 10 percent of Superior’s core
deposit base at the end of the conservatorship period (anticipated to be as long as 6 months). At
the time of the Failing Bank Case, DRR estimated the core deposit base at approximately $1.38
billion. This would have given an estimated range of deposit franchise premium of between $69
million and $138 million. In its Cost Test Summary, however, DRR used a middle figure of 8
percent, or $110 million, as the estimated deposit premium and added it to net assets.

DRR estimated that the costs to operate the deposit franchise during the 6-month conservatorship
period would be $9 million, and offset those costs with the expected premium to arrive at the net
deposit premium amount of $101 million.

DRR added the net deposit premium to the amount of gross assets (less the estimated losses) and
determined that the amount of assets available for distribution to the receivership claimants
totaled $1.7 billion. ($1.60 billion plus $101 million).

The Distribution of Claims/Losses section of the Cost Test Summary apportions the assets
available for distribution to each of the receivership claim groups, based on the claimants' loss
position. Secured and preferred creditors are in first position for distribution of assets. The
FDIC and uninsured depositors are in second position and share on a pro rata basis. General
creditors are in third position. If Superior had subordinated creditors, they would have been in
last position. After the assets were distributed, the FDIC (i.e., SAIF) was left with an estimated
loss on its claim totaling $426.4 million.

The FDIC's Total Cost for each resolution alternative is compared on the Cost Test Summary,
and the resolution alternative having the least cost to the deposit insurance fund is presented.
DRR estimated that the loss to the deposit insurance fund under the conservatorship resolution
method would be $426.4 million, the least costly alternative compared to liquidation or an
immediate receivership and sale.




                                                32
                                                                                     APPENDIX VII




 FEDERAL DEPOSIT INSURANCE CORPORATION IMPROVEMENT ACT OF 1991
                    PROMPT CORRECTIVE ACTION

Section 38 of the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA),
codified at 12 USC 1831o, requires prompt corrective action to protect the deposit insurance
funds. Relevant excerpts from Section 38 are found below:

 (a) Resolving Problems To Protect Deposit Insurance Funds.

    (1) PURPOSE. The purpose of this section is to resolve the problems of insured
        depository institutions at the least possible long-term loss to the deposit insurance
        fund.

    (2) PROMPT CORRECTIVE ACTION REQUIRED. Each appropriate Federal banking
        agency and the Corporation (acting in the Corporation's capacity as the insurer of
        depository institutions under this Act) shall carry out the purpose of this section by
        taking prompt corrective action to resolve the problems of insured depository
        institutions.

 (b) DEFINITIONS. For purposes of this section:

  (1) CAPITAL CATEGORIES.--

      (A) WELL CAPITALIZED. An insured depository institution is "well capitalized" if it
          significantly exceeds the required minimum level for each relevant capital measure.

      (B) ADEQUATELY CAPITALIZED. An insured depository institution is "adequately
          capitalized" if it meets the required minimum level for each relevant capital measure.

      (C) UNDERCAPITALIZED. An insured depository institution is "undercapitalized" if it
          fails to meet the required minimum level for any relevant capital measure.

      (D) SIGNIFICANTLY UNDERCAPITALIZED. An insured depository institution is
          "significantly undercapitalized" if it is significantly below the required minimum
          level for any relevant capital measure.

      (E) CRITICALLY UNDERCAPITALIZED. An insured depository institution is
          "critically undercapitalized" if it fails to meet any level specified under subsection
          (c)(3)(A).

 (c) CAPITAL STANDARDS

    (3) CRITICAL CAPITAL
                                                33
                                                                                      APPENDIX VII




         (A) AGENCY TO SPECIFY LEVEL.

            (i)     LEVERAGE LIMIT. Each appropriate Federal banking agency shall, by
                    regulation, in consultation with the Corporation, specify the ratio of tangible
                    equity to total assets at which an insured depository institution is critically
                    undercapitalized.

            (ii)    OTHER RELEVANT CAPITAL MEASURES. The agency may, by
                    regulation, specify for 1 or more other relevant capital measures, the level at
                    which an insured depository institution is critically undercapitalized.

(h) Provisions Applicable to Critically Undercapitalized Institutions.

            (3) Conservatorship, receivership, or other action required.

                    (A) IN GENERAL. The appropriate Federal banking agency shall, not later
                        than 90 days after an insured depository institution becomes critically
                        undercapitalized

                         (i)    appoint a receiver (or, with the concurrence of the Corporation, a
                                conservator) for the institution; or

                         (ii)   take such other action as the agency determines, with the
                                concurrence of the Corporation, would better achieve the purpose
                                of this section, after documenting why the action would better
                                achieve that purpose.




                                                 34
                                                                                        APPENDIX VIII

Federal Deposit Insurance Corporation
Washington, DC 20429                                            Division of Resolutions and Receiverships


                                                           January 29, 2002


MEMORANDUM TO:               Russell A. Rau
                             Assistant Inspector General for Audits

FROM:                        James R. Wigand, Deputy Director [Electronically produced
                             version; original signed by James R. Wigand]
                             Franchise and Asset Marketing Branch
                             Division of Resolutions and Receiverships

SUBJECT:                     Response to OIG Draft Report Entitled Least Cost Decision of
                             Superior Bank and Liquidation of Remaining Receivership Assets
                             (Assignment No. 2001-721)


Thank you for the opportunity to respond to your draft report. This memorandum will serve to
respond to the issues and recommendations outlined in the draft OIG Audit Report.

Recommendation #1

Pursue a formal information sharing agreement with the OTS so that DRR can gather
information necessary to plan for an orderly resolution and provide the FDIC Board with
complete and reliable information on which to base its least cost decision.

Response:

DRR agrees with the recommendation. In the past, DRR has attempted to formalize a sharing
agreement with OTS similar to agreements established with DOS and the OCC. DRR will
continue to pursue the sharing agreement with OTS and will schedule an initial meeting with
OTS by March 31, 2002 and attempt to formalize an agreement by May 31, 2002.

Recommendation #2

Ensure that all assumptions used to estimate the loss to the insurance fund and used by the FDIC
Board for decision-making purposes are documented in accordance with FDICIA, as well as the
general documentation guidance prescribed by the GAO and provided within this report, and this
documentation is prepared in advance of the Board’s decision.

Response:

DRR agrees with the recommendation and will explore ways to modify the Research Model so it
can be used for larger banks when a complete AVR is not available. (See Response for
Recommendation #3.)
                                               35
                                                                                   APPENDIX VIII




The OIG report states that the assumptions used in making the decision were fully documented
(i.e. expected premium and future operating loss.) The projected loss on assets was staff’s best
estimate given the limited time, and as OIG pointed out, was not fully supported. It should be
noted that the same level of asset losses was used in the least cost analysis for each resolution
alternative and therefore, had no impact on the relative cost of each resolution alternative.

Due to circumstances described in the report, DRR had very limited time available to estimate
the loss to the insurance fund and prepare the FDIC Board case for Superior. Although DRR
did not have a completed AVR, DRR was able to estimate loss for a significant portion of the
assets at Superior. DRR’s staff, who has significant experience in liquidating assets, provided
these loss estimates. Due to the time constraints, DRR analysts preparing the least cost test
relied on the information obtained from DRR’s on-site staff (either by phone or email) in order
to provide the FDIC Board with its best estimate of loss. Additionally, DRR’s Washington’s
Capital Markets Group prepared a loss estimate on Superior’s residual assets. This analysis
was documented thoroughly and used by DRR analysts in preparing the least-cost test.

Recommendation #3

Develop internal policies and procedures that would provide DRR with guidance on how to
prepare a Cost Test Summary when the LCT model or Research Model is not applicable.

Response:

DRR agrees with the recommendation and will explore ways to modify the Research Model so it
can be used for larger banks when a complete AVR is not available. DRR currently has internal
policies and procedures that provide DRR with guidance on how to prepare an estimate of the
least cost transaction for a failing institution. However, DRR procedures had excluded using the
Research Model for large institutions with assets over $100 million or for institutions where
fraud was suspected. One of DRR’s greatest concerns regarding the Research Model limitations
is because the prediction error increases as the size of the bank increases. DRR will take the
following actions:

1) Meet with DRS to explore methods of developing new loss coefficients that are applicable to
   large banks and take into consideration special problems in the bank (i.e. residuals, credit
   cards, etc.) by March 31, 2002.
2) Modify and complete testing of the Research Model by May 31, 2002.
3) Document assumptions used to determine loss coefficients and changes in procedures by
   May 31, 2002.
4) Meet with OIG to review documentation and new procedures by June 14, 2002.
5) Revise Research Model available for use in Resolution cases by June 30, 2002.




                                                36
                                                                                APPENDIX VIII




Recommendation #4

Include lessons learned from the Superior resolution, especially in the area of timely and
appropriate access to a financial institution’s information in DRR’s proposed Lessons Learned
study concerning situations encountered from DRR’s resolution activities.

Response:

DRR agrees with the recommendation. This is a current project in DRR’s strategic plan for
2002 and is scheduled to be complete by year-end 2002.




cc: Mitchell L. Glassman




                                              37
